Audit Report 97-31A
DRUG ENFORCEMENT ADMINISTRATION
ANNUAL FINANCIAL STATEMENT
FISCAL YEAR 1996
Audit Report 97-31A, (9/97)
TABLE OF CONTENTS
OFFICE OF THE INSPECTOR GENERAL COMMENTARY AND SUMMARY
MESSAGE FROM THE CHIEF FINANCIAL OFFICER
OVERVIEW OF THE REPORTING ENTITY
INDEPENDENT AUDITORS' REPORT ON FINANCIAL STATEMENTS
INDEPENDENT AUDITORS' REPORT ON INTERNAL
CONTROLS
INDEPENDENT AUDITORS' REPORT ON COMPLIANCE WITH
LAWS AND REGULATIONS
STATEMENT OF FINANCIAL POSITION
STATEMENT OF OPERATIONS AND CHANGES IN
NET POSITION
NOTES TO THE FINANCIAL STATEMENTS
SUPPLEMENTAL FINANCIAL AND MANAGEMENT INFORMATION
DEA HISTORY
DOMESTIC AND FOREIGN CHARTS, MAPS
& OFFICE LISTINGS
PERFORMANCE MEASURES FISCAL YEAR 1996 PROGRAM HIGHLIGHTS
APPENDIX I - AUDIT DIVISION ANALYSIS AND SUMMARY OF
ACTIONS NECESSARY TO CLOSE THE REPORT
OFFICE OF THE INSPECTOR GENERAL
COMMENTARY AND SUMMARY
This audit report contains the Annual Financial Statement of the Drug Enforcement
Administration (DEA) for the fiscal year ended September 30, 1996. The report includes the
DEA management's overview, the principal financial statements and related notes, and the
independent auditors' reports on the principal financial statement, internal control
structure, compliance with laws and regulations, and supplemental financial and management
information. The annual financial statement is the responsibility of the DEA management.
This audit was performed as part of the Department of Justice's (DOJ) effort to implement
the Government Management Reform Act of 1994 (GMRA), which requires an annual financial
statement audit of the DOJ beginning with FY 1996. The results of the annual financial
statement audit of the DEA as presented in this report will be relied upon by Price
Waterhouse LLP in its performance of the consolidated financial statement audit of the
DOJ, which will be issued as a separate report by the Office of the Inspector General
(OIG).
The OIG contracted with KPMG Peat Marwick, LLP, Certified Public Accountants (CPA), to
perform the FY 1996 audit of the DEA Combined Statement of Financial Position. The audit
was conducted in accordance with generally accepted government auditing standards and
Office of Management and Budget Bulletin No. 93-06, "Audit Requirements for Federal
Financial Statements." The OIG performs an oversight role in the audit process and
ensures compliance with the GMRA by monitoring the progress of the audit, reviewing
supporting workpapers, coordinating the issuance of reports, and following up on findings
and management letter issues.
As part of the DOJ-wide audit, Price Waterhouse LLP performed a general controls review
of the Justice Data Centers, which process the DEA's data. The results of this work were
considered by KPMG Peat Marwick in performing its audit of the DEA. Additional work was
performed by KPMG Peat Marwick at the DEA level, as considered necessary to complete its
audit.
Reporting Entity
The DEA was created on July 1, 1973, as the result of an effort to consolidate all
federal anti-drug forces under a single unified command within the Department of Justice.
It is headed by an Administrator and consists of 20 Domestic Divisions and 70 Foreign
Offices in 51 countries throughout the world.
The DEA's sole mission is to combat drug trafficking. It is responsible for the
development of federal drug enforcement strategy, programs, planning, and evaluation. It
provides the skeletal structure for drug law enforcement worldwide and a point of
reference for efforts against all aspects of the illegal drug problem, including
investigations, drug intelligence, chemical control, diversion control and regulation, and
crop and laboratory eradication. Other agencies have a non-drug mission and bring special
functions to particular aspects of the overall anti-drug effort. The DEA conducts 75
percent of its investigations in cooperation with other agencies.
In FY 1996, DEA employed over 7,400 persons and its budget was approximately $1
billion.
Audit Results
The audit resulted in a disclaimer of opinion on the Combined Statement of Financial
Position. The independent auditor was unable to obtain sufficient information regarding an
irregularity involving a DEA employee and therefore was not able to determine the effect
of the irregularity on the DEA's financial position as of September 30, 1996. In addition,
the DEA either did not have, or had not maintained, systems to accurately and completely
account for all of its capitalizable property and equipment (P&E), report its seized
assets and related liabilities, and report the results of operations of Attorney General
exempt and trafficker directed operations which were active during FY 1996. The auditors
were therefore unable to satisfy themselves as to the fair presentation of the related
account balances. The independent auditors were unable to apply audit procedures
sufficient to determine the extent to which the combined Statement of Financial Position
may have been affected by these conditions. As a result, the scope of the independent
auditors' work was not sufficient for the auditors to express an opinion.
Due to the scope limitation imposed as a result of the irregularity involving the DEA
employee referred to in the previous paragraph, the independent auditors were unable to
determine what, if any, reportable conditions existed related to that matter or the
effect, if any, of the irregularity on DEA's compliance with laws and regulations.
However, its report on the internal control structure identified four material weaknesses
with respect to: (1) property and equipment, (2) seized assets, (3) Attorney General
exempt and trafficker directed operation, and (4) security software. In its report on
compliance with laws and regulations, the independent auditor cited DEA for not complying
with Attorney General exempt and trafficker directed authority reporting requirements.
The auditors were not contracted to perform control testing sufficient to enable them
to express an opinion on management's assertion over the effectiveness of the internal
control structure as a whole or compliance with laws and regulations. Accordingly they did
not express such opinions. Additionally, certain conditions involving the internal control
structure and compliance with laws and regulations were noted by the independent auditor
and will be communicated to management under separate letter.
Financial and Operating Highlights
The DEA is currently in the process of switching their accounting system to the
Department of Interior's Federal Financial System (FFS). The DEA's current accounting
system was cited as a material nonconformance in its 1996 FMFIA report because of its
inability to perform the core financial accounting functions. The DEA believes that moving
to this system should help to eliminate some of the problems identified in this report
such as the reporting of accounts payable.
#####